Report No. D-2010-040                 February 1, 2010





            Independent Auditor's Report on the 

             DOD FY 2009 Detailed Accounting 

               Report of the Funds Obligated 

                 for National Drug Control 

                     Program Activities

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704
                                    INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIV E
                              ARLINGTON, VIR GINIA 22202-4704


                                                                           February I, 20 I 0

MEMORANDUM FOR THE DEPUTY ASSISTANT SECRETARY OF DEFENSE
               (COUNTERNARCOTICS and GLOBAL THREATS)

SUBJECT: 	Independent Auditor's Report on the DOD FY 2009 Detailed Accounting
          Report of the Funds Obligated for National Drug Control Program Activities
          (Report No. D-20 I 0-040)

Public Law 105-277, section 701 , is known as "The Office of National Drug Control
Policy Reauthorization Act of J998" (the Act). The Act requires that DOD rumually
submit a detailed report (the Report) to the Director of the Office of National Drug
Control Policy accounting for all funds DOD expended for National Drug Control
Program activities during the previous fiscal year. The Public Law was reauthorized by
Public Law 109-469 in December 2006. The Act requires that the Inspector General of
the Department of Defense authenticate the Report prior to its submission to the Director.

Office of National Drug Contro l Policy Ci.rcular "Drug Control Accounting," (the
Accounting Policy Circular) May 1,2007, provides the policies and procedures DOD
must use to prepru'e the Report and authenticate the DOD funds expended on National
Drug Control Program activities. The Accounting Policy Circular specifies that the
Report must contain a table of prior year drug control obligati ons, listed by functional
area, and include five assertions relating to the obligation data presented in the table.

The Deputy Assistant Secretary of Defense (Countemarcotics and Global Threats)
[DASD (CN & GT)] was responsible for the detailed accounting of funds obligated and
expended by DOD for the National Drug Control Program for FY 2009. We have
reviewed the DASD (CN & GT) detailed accounting in accordance with the attestation
standru'ds established by the American Institute of Certified Public Accountants and in
compl iance with generally accepted government auditing standards. We performed a
review-level attestati on, which is substantially less in scope than an examination done to
express rul opinion on the subj ect matter. Accordingly, we do not express an opinion.

We reviewed three DOD reprogramming actions that allocated $1,397.2 million among
the Military Departments, National Guard, aJ1d Defense agencies. We reviewed the year­
end obligation report and determined that DASD (CN & GT) allocated the funds to
appropriations and project codes intended for the DOD Counterdrug program.

The DOD Office of Inspector General previously identified a material management
control weakness related to the DOD Components' accounting for Counterdrug nll1ds . In
response to our identification of this weakness, DASD (CN & aT) issued a policy
memorandum on August 25,2005, requiring detailed transaction support for all
Counterdrug obligations.

As part of our review attestation for FY 2009, we determined whether the DOD
Components that received Counterdrug funding from DASD (CN & GT) had
implemented procedures to support reported obligations with detailed transaction listings.
We requested and obtained the listings that were available for repOlted obligations. We
were able to obtain the majority of dctailed transactions for the Military Component
obligations.

DASD (CN & GT) provided us the Report in a letter dated December 18, 2009, which we
reviewed to determine compliance with the Accounting Policy Circular. The detailed
accounting indicated that during FY 2009 the DOD obligated $1,240.4 million in the
COllnterdrllg program functional arcas. The Office ofthe DASD (CN & GT) compiled
the Report from data the Military Departments and other DOD Components submitted.

DASD (CN & GT) initially reprogrammed the funds from the Central Transfer Account
to the DOD Components, using project codes. The DOD Components provided year-end
obligation data to DASD (CN & GT) through the DASD CN database which compiled
the data into one obligation report. Tn order to present the obligations by functional area
in compliance with the Accounting Policy Circular, DASD (CN & GT) applied
percentages to each project code in the consolidated report to compute the amounts
presented in the table of obligations instead of obtaining the information directly from thc
accounting systems.

Bascd on our review, except for the DASD (CN & GT) use ofperccntages to calculate
the obligations presented by functional area, nothing came to our attention during the
review that caused us to believe the detailed accounting of funds obligated by DOD on
the National Drug Control Program for FY 2009 is not presented, in all material respects,
in conformity with the Accounting Policy Circular.




                                             l~a.lIl~
                                              Patricia A. Marsh, CPA
                                              Assistant Inspector General
                                              Defense Business Operations




                                             2

                                 OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE
                                              2500 DEFENSE PENTAGON
                                             WASHINGTON. D. C. 20301·2500




    SP£CIAL QpE::RATIONst 

   LOW,INTEHSIT)' CONFUGT 

,. INTERDePENDENf CAPASlunES 




                                                                                 IJIC 1-1_
          Mr. Jon Rice 

          Associate Director 

          Perfonnance and Budget 

          Office of National Drug Control Policy 

          750 Ith Street, NW 

          Room 535 

          Washington, DC 20503 


          Dear Mr. Rice:

                 The drug methodology used to calculate obligations by drug control function of
          Fiscal Year 2009 budgetary resources is reasonable and accurate. The obligation table in
          Tab A was generated by the methodology as reflected in Tab B. The obligations are
          associated with a financial plan that properly reflects all changes made during the fiscal
          year. The Counternarcotics Central Transfer Account does not receive Fund Control.
          Notice. Performance Reporting will be addressed under separate correspondence.




                                                      William F. Wechsler
                                                      Deputy Assistant Secretary of Defense
                                                      Counternarcotics and Global Threats


          Enclosures: 

          As stated 


         CF: 

         OODIG 

                                                                  UNCLASSIFIED
                                     Counternarcotics Central Transfer Account Obligations
                                                                       (5000)


ONDCP Resource CategQ{"ies                             FY-09
    Intelligence: Dom Law Enforcement                   41,989
    Intelligence: Interdiction                          33,236
    Intelligence: International                         92,930
    Interdiction                                       31S,20g
    International                                      389,180
    Investigative                                       50,964
    Prevention                                         130,065
    Prosecution                                               o
    R&D: Interdiction                                   21,741
    R&D: International                                    2,268
    State and Local Assistance                         151,760
    Treatment                                            8,094
    TOTAL                                         1.240.435 •
    • This amount inlcudes a 0.99% obligation rate for MILPERS and a 0.98% obligation rate for O&M. Investment appropriations, which are
    multi-year. are currently obligated at 0.3 1%.




DRUG RESOURCES PERSO.NNEL SUMMARY
    TotalFTEs                                             L528




                                                                   UNCLASSIFIED
                                                                            1                                                              Tab A
                                   DRUG METHODOLOGY

Central Transfer ACCQunt

        The Countemarcotics Central Transfer Account (CTA) was established in PBD 678
in November 1989. Under the CTA, funds are appropriated by Congress to a single
budget line, not to the Services baselines. The CTA accounts for all counternarcotics
resources for the Department of Defense with the exception of OPTEMPO and Active Duty
MILPERS. Funds are reprogrammed from the CTA to the Services and Defense Agencies
in the year of execution. The CTA allows for greater execution flexibility in the
countemarcotics program with the ability to realign resources to address changes In
reqUirements. The CTA is essential to respond effectively to the dynamic nature of the
drug threat.

       The Office of National Drug Control Policy (ONDCP) reports within the National
Drug Control Strategy the amount of funds appropriated to the counternarcotics CTA. The
actual obligations for the countemarcotlcs program for a particular fiscal year differ from
the amount released to the CTA since some of the DoD counternarcotics effort is executed
with multi-year funding.

       The reprogramming process begins with reprogramming documents (DD1415 and
DD1105) prepared by the Office of the Deputy Assistant Secretary of Defense for
Countemarcotics and forwarded to DoD Comptroller. Funds are reprogrammed to the
applicable appropriationlbudget activity at the ServicelDefense Agency by project (e.g.,
Navy's Fleet Support, Hemispheric; Radar System, Counternarcotlcs RDT&E). The
Intemal reprogramming (IR) action requires no congressional notification/approval.

         The Services/Defense Agencies have their own Internal accounting systems for
tracking obligations of funds transferred from the Counternarcotics CTA. The follOWing
examples provide the process of how obligations are tracked:
• 	 The Army Budget Office receives obligation data from the Defense Finance and
    Accounting System (DFAS) on a monthly basis and funds are tracked by the
     DFASIStandard Army Financial Information System (STANFINS).
• 	 The Air Force uses the USAF General Accounting & Finance System (GAFS) and the
     Commanders Resources Integration System (CRIS) to track obligations. Both of these
    systems are utilized for Countemarcotics obligations and commitments. These
    systems Interface directly with the DFAS.
• 	 The Navy uses the Standard Accounting and Reporting System, Field Level (STARS­
    FL) which provides the means of tracking allocated counternarcotics funds through the
    life cycle of the appropriation at the actJvlty/fiefd level. Navy countemarcotics funding is
    recorded under separate cost centers and sub-cost centers, with a line of accounting
    consisting of subhead, project units and cost codes specifically for countemarcotics
    obligation tracking.
• 	 The Army and Air National Guard employs a central accounting servioe from the DFAS
    to consolidate, aggregate, and report on funds as they are committed, obligated, and
    expended. The Army State and Federal Program Accounting Codes and the Air


                                                                                        Tab B
   Accounting Codes provide funds-tracking mechanisms to reconcile funding at various
   levels of reporting and execution.

        The ServiceslDefense Agencies provide quarterly obligation reports by project code
to the Office of the Deputy Assistant Secretary of Defense for Counternarcotics (CN).
Beginning in FY 2008, the col/ectlon of obligation data has be via the DASD CN database
and compiled into a single countemarcotics obligation report. The obligation and
expenditure data provided by the Services/Defense Agencies are compared against their
total annual countemarcotics funding for each appropriation. At the end of the year, the
Services/Defense Agencies provide an end of year data which reflects their actual
Obligations, not an estimation.

       The quarterly obligation data collected Is by project code, not down to the drug
control function. In order to comply wHh ONDCP's cirCUlar and provide obligation data by
function, It was necessary to use percentages for each project code.
